     DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601

                                     December 16, 2009

Report Number: A-05-08-00008

Mr. Thomas Crawford
President and Chief Executive Officer
St. Vincent Frankfort Hospital
1300 South Jackson St.
Frankfort, Indiana 46041

Dear Mr. Crawford:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Select Medicare Conditions of Participation and
Costs Claimed at St. Vincent Frankfort Hospital from July 1, 2003, Through June 30, 2006.” We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jaime Saucedo, Audit Manager, at (312) 353-8693 or through email at
Jaime.Saucedo@oig.hhs.gov. Please refer to report number A-05-08-00008 in all
correspondence.

                                             Sincerely,



                                             /Stephen Slamar/
                                             Acting Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Thomas Crawford


Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





  REVIEW OF SELECT MEDICARE 

CONDITIONS OF PARTICIPATION AND 

        COSTS CLAIMED AT 

ST. VINCENT FRANKFORT HOSPITAL 

       FROM JULY 1, 2003,

     THROUGH JUNE 30, 2006




                       Daniel R. Levinson

                        Inspector General 


                         December 2009

                         A-05-08-00008

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                              Notices


         THIS REPORT IS AVAILABLE TO THE PUBLIC
                   at http://oig.hhs.gov

  Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
  OIG post its publicly available reports on the OIG Web site.


OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as questionable,
  a recommendation for the disallowance of costs incurred or claimed,
  and any other conclusions and recommendations in this report represent
  the findings and opinions of OAS. Authorized officials of the HHS
  operating divisions will make final determination on these matters.
                              EXECUTIVE SUMMARY

BACKGROUND

Section 4201 of the Balanced Budget Act of 1997, P. L. No. 105-33, Social Security Act, § 1820,
42 U.S.C. § 1395i-4, authorized States to establish Medicare Rural Hospital Flexibility Programs
and to designate certain facilities as Critical Access Hospitals (CAH). CAHs must meet certain
Medicare Conditions of Participation (CoP) (42 CFR pt. 485, subpart F) and guidelines
established by the Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program.

Section 405(e) of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), P. L. No. 108-173, Social Security Act, § 1820(c)(2)(B)(iii), 42 U.S.C. § 1395i-
4(c)(2)(B)(iii), allowed CAHs to have up to 25 inpatient beds that could be used for acute care or
swing-bed services, with CMS approval. Section 405(a) of the MMA, Social Security Act §§
1814(l), 1834(g)(1) and 1883(a)(3), 42 U.S.C. §§ 1395f(l), 1395m(g)(1) and 1395tt(a)(3),
allowed CAHs to receive Medicare reimbursement totaling 101 percent of allowable, allocable,
and reasonable costs for payments for services furnished during cost reporting periods beginning
on or after January 1, 2004.

St. Vincent Frankfort Hospital (the hospital), located in Frankfort, Indiana, is one of thirteen
hospitals in St. Vincent Health Inc., which is owned by Ascension Health, a Missouri-based non-
profit corporation. On November 27, 2000, the State of Indiana designated the hospital a CAH
providing inpatient and outpatient services. The hospital received Medicare reimbursement
totaling $15.3 million for costs reported on its 2004, 2005, and 2006 Medicare cost reports.

OBJECTIVES

Our objectives were to determine whether the hospital complied with select Medicare CoP and
reported costs that were allowable, allocable, and reasonable on its 2004, 2005, and 2006
Medicare cost reports in accordance with Federal requirements.

SUMMARY OF FINDINGS

The hospital reported $62,945 for unallowable costs on its 2005 and 2006 Medicare cost reports.
The hospital reported late lease payments of $61,912 and lobbying costs of $1,033 on its 2005
and 2006 Medicare cost reports, respectively. The hospital said these costs were inadvertently
included in its costs reports.




                                                i
RECOMMENDATIONS

We recommend that the hospital:

          revise and resubmit its 2005 and 2006 Medicare cost reports to properly reflect the
           exclusion of the $62,945 in unallowable costs; and

          ensure that it only reports allowable costs on future Medicare cost reports.

HOSPITAL COMMENTS

In written comments on our draft report, the hospital disagreed with our finding related to
noncompliance with the 25 inpatient bed limit. The hospital agreed that building lease expenses
and lobbying costs were inappropriately reported on its 2005 and 2006 costs reports. The
hospital said that it had inadvertently included these costs in its cost reports and has since
submitted a copy of our draft report and a letter to its fiscal intermediary disclosing these errors
and requesting guidance on how the fiscal intermediary would like to correct the errors.

The hospital’s comments are included in their entirety as the Appendix, except for personally
identifiable information.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the hospital’s comments, we removed our finding and recommendation related
to the 25 bed limit.




                                                 ii
                                                 TABLE OF CONTENTS


                                                                                                                    Page


INTRODUCTION...................................................................................................... 1 


          BACKGROUND ............................................................................................. 1 

              Critical Access Hospitals ..................................................................... 1 

              St. Vincent Frankfort Hospital............................................................. 1 


          OBJECTIVES, SCOPE, AND METHODOLOGY......................................... 1 

               Objectives ............................................................................................ 1 

               Scope.................................................................................................... 1 

               Methodology ........................................................................................ 2 


FINDINGS AND RECOMMENDATIONS ............................................................ 2 


          UNALLOWABLE COSTS. ............................................................................ 2 

              Late Lease Payment Fees..................................................................... 2 

              Lobbying Costs .................................................................................... 3 


          RECOMMENDATIONS................................................................................. 3                   


          HOSPITAL COMMENTS............................................................................... 3 


          OFFICE OF INSPECTOR GENERAL RESPONSE. ..................................... 4 


APPENDIX

          HOSPITAL COMMENTS




                                                                  iii
                                          INTRODUCTION

BACKGROUND

Critical Access Hospitals

Section 4201 of the Balanced Budget Act of 1997, P. L. No. 105-33, Social Security Act, § 1820,
42 U.S.C. § 1395i-4, authorized States to establish Medicare Rural Hospital Flexibility Programs
and to designate certain facilities as Critical Access Hospitals (CAH). CAHs must meet certain
Medicare Conditions of Participation (CoP) (42 CFR pt. 485, subpart F) and guidelines
established by the Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program.

Section 405(e) of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003
(MMA), P. L. No. 108-173, Social Security Act, § 1820(c)(2)(B)(iii), 42 U.S.C. § 1395i-
4(c)(2)(B)(iii), allowed CAHs to have up to 25 inpatient beds that could be used for acute care or
swing-bed services, with CMS approval. 1 Section 405(a) of the MMA, Social Security Act §§
1814(l), 1834(g)(1) and 1883(a)(3), 42 U.S.C. §§ 1395f(l), 1395m(g)(1) and 1395tt(a)(3),
allowed CAHs to receive Medicare reimbursement totaling 101 percent of allowable, allocable,
and reasonable costs for payments for services furnished during cost reporting periods beginning
on or after January 1, 2004.

St. Vincent Frankfort Hospital

St. Vincent Frankfort Hospital (the hospital), located in Frankfort, Indiana, is one of thirteen
hospitals in St. Vincent Health Inc., which is owned by Ascension Health, a Missouri-based non-
profit corporation. On November 27, 2000, the State of Indiana designated the hospital a
necessary provider and CAH under 42 CFR § 485.606. The hospital provides inpatient and
outpatient services. The hospital received Medicare reimbursement totaling $15.3 million for
costs reported on its 2004, 2005, and 2006 Medicare cost reports.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the hospital complied with select Medicare CoP and
reported costs that were allowable, allocable, and reasonable on its 2004, 2005, and 2006
Medicare cost reports in accordance with Federal requirements.

Scope

We reviewed the hospital’s compliance with select Medicare CoP and costs reported for the
period July 1, 2003, through June 30, 2006.


1
 A swing-bed can be used interchangeably for either inpatient care or skilled nursing care. A patient
“swings” or transitions from receiving inpatient services to receiving skilled nursing services.


                                                         1

We limited our internal control review to obtaining an overall understanding of the hospital’s
policies and procedures for complying with the Medicare CoP and reporting costs on its
Medicare cost reports.

We performed our fieldwork at the hospital in Frankfort, Indiana.

Methodology

To accomplish our objectives, we:

   	 reviewed applicable Federal CAH requirements;

   	 reviewed the hospital’s policies and procedures related to compliance with select 

      Medicare CoP and cost reporting requirements; 


   	 analyzed the hospital’s financial statements and Medicare cost reports for the audit period
      and determined whether reported costs were allowable, allocable, and reasonable; and

   	 observed the number of inpatient beds available for use on November 27, 2007, and
      reviewed inventory records for the audit period.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The hospital reported $62,945 for unallowable costs on its 2005 and 2006 Medicare cost reports.
The hospital reported late lease payments of $61,912 and lobbying costs of $1,033 on its 2005
and 2006 Medicare cost reports, respectively. The hospital said these costs were inadvertently
included in its costs reports.

UNALLOWABLE COSTS

The hospital reported unallowable costs totaling $62,945 related to late lease payments ($61,912)
and lobbying costs ($1,033) on its 2005 and 2006 Medicare cost reports, respectively.

Late Lease Payment Fees

Federal regulations (42 CFR § 413.9) state that a hospital’s costs must be related to patient care.
Additionally, the CMS Provider Reimbursement Manual (PRM), chapter 21, section 2102.1,
titled “Reasonable Costs,” states that actual costs be paid to the extent they are reasonable, that
the provider seeks to minimize its costs, and that its actual costs do not exceed what a prudent
and cost conscious buyer pays for a given item or service. If costs are determined to exceed the


                                                 2

level that such buyers incur, in the absence of clear evidence that the higher costs were
unavoidable, the excess costs are not reimbursable under the program. Furthermore, section
2103, titled “Prudent Buyer,” states, “Any alert and cost conscious buyer seeks such [cost
cutting] advantages, and it is expected that Medicare providers of services will also seek them.”

Contrary to Medicare requirements, the hospital reported $61,912 for unallowable late fees and
related interest penalties on its 2005 Medicare cost report because the hospital made several late
payments for its lease. As a penalty for making late payments, the hospital paid a 5 percent late
fee and an overdue interest penalty. Because the hospital did not seek to minimize its costs, the
late fees and interest penalties were unallowable.

Lobbying Costs

The CMS PRM, chapter 21, section 2139, titled “Political and Lobbying Activities,” states,
“Provider political and lobbying activities are not related to the care of patients. Therefore, costs
incurred for such activities are unallowable.” Furthermore, the PRM, section 2139.3, titled
“Organization Dues Related to Lobbying and Political Activities,” states, “Trade or other
organizations and associations often engage in lobbying and political activities as part of their
activities. Therefore . . ., the portion of an organization's dues or other payments related to these
activities, including special assessments, is an unallowable cost.”

Contrary to Medicare requirements, the hospital reported $1,033 for unallowable lobbying costs
on its 2006 Medicare cost report for the lobbying activities’ portion of association dues
payments.

RECOMMENDATIONS

We recommend that the hospital:

       	 revise and resubmit its 2005 and 2006 Medicare cost reports to properly reflect the
          exclusion of the $62,945 in unallowable costs; and

       	 ensure that it only reports allowable costs on future Medicare cost reports.

HOSPITAL COMMENTS

In written comments on our draft report, the hospital disagreed with our finding related to
noncompliance with the 25 inpatient bed limit. The hospital agreed that building lease expenses
and lobbying costs were inappropriately reported on its 2005 and 2006 costs reports. The
hospital said that it had inadvertently included these costs in its cost reports and has since
submitted a copy of our draft report and a letter to its fiscal intermediary disclosing these errors
and requesting guidance on how the fiscal intermediary would like to correct the errors.

The hospital’s comments are included in their entirety as the Appendix, except for personally
identifiable information.




                                                  3

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the hospital’s comments, we removed our finding and recommendation related
to the 25 bed limit.




                                             4

APPENDIX

                                                                                                                            Page 1 of5



                                   APPENDIX: HOSPITAL COMMENTS 





                  . . . St.Vincent
                        Frankfort Hospital
                                   August 7, 2009
13UO Snum J3ci::Son SUttt
FranU,m, IndiuW1 46041
765-656-3000                       Marc Gustafson
Fa" 16.'i-Mb-32blj                 Regional Inspector Oeneral for Au
                                                                   Audi
                                                                     ditt Services
                                   Office of the Inspector General
                                   233 North Michigan Avenue
                                   Chicago, IL 60601

                                   Re:     Response to Draft Audit Report A-OS·08-0008

                                   Dear Mr. Oustafson:

                                   This letter serves as St. Vincent Frankfort Hospital's (the "Hospital's") response to
                                   the Department of Health and Human Services, Office of the Inspector General
                                   ("010") draft audit re repport entitled, "Review of Select Medicare Conditions of
                                   Participation and Costs Claimed at St_ Vincent Frankfort Hospital from July 1,
Atmmbt:rof                         2003 - June 30, 2006." The Hospital's responses to the OlG's recommendations
~CEN.~I.<?!,!                      are detailed below.

                                   OIG Recomm'Dcladott 1: Tbe OlG reeommea4s Ib.t tU IaOlplta' e.lare It II
St, Vintent's Con Velun
                                   eompUailt wi.. die Medicare CoP related to the 15 bed IlDIit fcir Iap.Ueat
                                             wi..
_1IIf.r­
C"~lyur~pjril
    n uM MOSt ill noe4
, ..nuM
                      (,.­
                                   beds.

                                   R_ponseto OIG Reeo_eadatio. 1-:• The Hosp        Hospiital disagrees with the DIG's
Rel'CRIK'e                         clctennination that it wu nonc;os:optiant with the Modicare COP Ihtt limitl the
Rcs~1       and av.n
                av.npass
                    passiion 

for the dignity llnd diversity 

                                   inpatillftt bod count forCriti~ Access HoSpitals ("CAHs") to 2S. The Hosp    Hospiital
uflirc. 
                          IDIintains that it hu at all timCII oponitod with no morc than 25 inpati,nt beds,
Intqrit1                           COIisi.tcnt with CMS pida,noo. The HOIJrital believes the O~G's clctennination is
Inspiring lruslliJruut;h
pl!J'!I.oo;llleadcrship_
pl!J'!I.oo;llleadcrship_           inconaistCDt With available CMS-pidance Oll"bcd ClOUDt upon Which the RoijHtll
WISdom
                                   retied. Basoci on that iUidloco. the two span: beds and four cribs locatod in a
InlfCgr:l.ling cl
               clcc e l ~IlIo."C   storqe !Il'C8 inside ~e Holpilalthat is 1\Ot equipped for patient care -.holj\d not be
300 ..t cwml~j
        cwml~jfl. fl.
                                   counted toward the 2S mpment bed limit, u the 010 report concludes. How-ever.
Crntivil,
CouragNu§ innlJ\'fotion.           the Hospital bas complied with the OIG's intcrpnUtion of the Federal
                                   teqUircments for CARs linea this issue was raiJcd durin, the review, and win
Oodkation
 Affinning t~ hopt ;met            continue to do 10, by not Itorina itl cbanaOoOut beds and cribs in III ifill! that is
juy ()f our ministl)
            ministl)'.'.
                                   either in or adj8C4lllt to the HOIJrital. The available guidance upon which the
                                   Hospital relied is cqJIamod below.




                                                           A me~r 1)(   ~ SI. Vino
                                                                              Vino....nl Hearth




*Office ofInspector General Note-The auditee's response to the OIG's first
reqommendation is no longer applicable because the finding or issue referred to by
the ~uditee is not included in this report.
                                                                                             Page 2 of5




Mr. Marc Gustafson
August 7, 2009
Page 2


Medicare regulation 42 C.F.R. 485.620(a) limits CAHs to 25 inpatie inpatiennt beds that
can be used for inpatient acute care or swing bed servi  services
                                                              ces.. The Interpretive
Guidelines for CAHs in Appendix W of the State Operations Manual ("SOM")
state that only hospital-type beds that are located in or adjoining any location
where the beds could be used for inpatient care should be counted. The
Hospital's storage area where the spare beds and cribs were kep  eptt is not adja
                                                                             adjacen
                                                                                  centt to
an area of the Hospital wh
                        wher                      rendered.. It is located in an older
                           eree inpatient care is rendered
portion of the Hospital that is used entirely for storage and is not equipped for
patient care
        care.. This area was built in the 1950s and no longer is suitable for
inpatient care.

Based on instructions from CMS in a 2004 "Open Door Forum," the Hospital was
operating
opera ting with the understanding that beds that are used for "change out"
purposes do not count towards the 25 bed limit. On September 28, 2004, Dr         Dr..
Richard Lawl
          Lawlerer of CMS
                      CMS,, presented on the topic of Condition of Participation
485.620(a) Standard: Number of Beds. Spencer Grover, Vice President of the
                      Association,, attended the discussion and presented the
Indiana Hospital Association
information from CMS at the Indiana Rural Health Association
                                                      Association'' s Critical Access
Hospital Benchmarking Task Force Meeting on December 9,2004   9,2004.. The minutes
of this meeting reflect that hospitals were instructed that "change out beds" are
not counted toward the 25 bed limit. The comments in the minutes state that
pediatric beds and cribs are not able to fit adults. These beds can be moved out
and an adul
        adultt "hospital type" bed can be moved in as long as the changed out beds
are removed and out of service with no sheets or blankets
                                                    blankets.. The Hospital's Chief
Nursing Officer was in attendance at the meeting, and the Hospital relied on this
information in its operations.

The Hospital's spare beds are used only in the event that one of the inpatient beds
needs to be repaired. When a bed breaks, it is either swapped out for a spare bed
while the broken bed is being repaired or a spare bed is used for parts
                                                                  parts.. The spare
beds are never used in addition to the 25 inpatient beds. In the past, the spare
beds have been kept in an unheated garage that is not attached to the Hospital.
However,, the Hospital's maintenance crew observed that the cold weathe
However                                                                weatherr has
proven harmful to the functionality of the spare beds. They were moved into the
heated storage unit so that they could more easily become operational when
needed for spare parts or to swap out for a broken bed.

Because of the age of the Hospital's inpatie
                                     inpatienn t beds, it is particularly important to
the Hospital that spare beds are kept available for use whewhenn a bed breaks down.
The beds were manufactured in 1993 and 1994 and it has proven difficult in the
past for the Hospital's main
                          mainttenance department to repair the beds due to
discontinuance and unavailability of spare bed parts. In the past past,, the Hospital's
maintenance department has even had to procure parts from old beds at other
                                                                                          Page 3 of5




Mr. Marc Gustafson
Mr.
August 7, 2009
Page 3


facilities in ord
              order
                  er to repair the Hospital's beds. In order for the Hospital to
maintain 25 inpatie
              inpatiennt beds, it is necessary to keep the spare beds in the Hospital's
storage unit.

The spare cribs are also used only for "change out" purposes. That is, when a crib
is needed for a young child, a hospital-type bed from the inpatient unit is changed
out for one of the cribs in storage and removed from serv
                                                       serviice. The cribs are never
used in addition to the hospital-type beds in the inpatient unit. When a bed is
changed out for a crib, it is placed in storage until the crib is no longer needed.
The SOM Interpretive Guideline
                           Guideliness for CAHs specifical\y exclude newborn
bassinets and isolettes for we1l-baby boarders. Like bassinettes, cribs are a
specific type of bed that can only be used for small children. Cribs are not
available for use as ininp
                         patient beds for the majority of the Hospital's patients.
Because of this, cribs are not considered hospital-type beds, and should not be
counted toward the 25 bed limit.

The Hospital's interpretation of the CMS' policy on CAH bed count is also
consistent with the CMS' policy for counting the number of beds in a hospital for
purposes of determining a hospital's indirect medical education ("IME") costs.
Forr purposes of calculating IME payment, the number of beds in a hospital is
Fo
dettermined by counting the number of available bed days during the cost
de
reporting period and dividing that number by the number of days in the cost
reporting period. 42 C.F.R. 412.105(b). Although not directly applicable to
CAHs, this represents one of the few, ifnot only, other sources ofCMS guidance
on determining a Hospital's bed count for Medicare purposes.

Similar to CMS' instructions for counting CAH beds, the count of available beds
for IME purposes excludes beds used for outpatient observation services, beds or
bassinets in the healthy newborn nursery, and beds in excluded distinct part
         units.. CMS manual instructions for counting beds for IME purposes
hospital units
states that to be counted, a bed must be permanently maintained for lodging
inpatients and it must be available for use and housed in patient rooms or wards.
Provider Reimbursement Manual, Section 2405.3.

Additionally, CMS regulations state that the count of available bed days for IME
pUlJlOses excludes bed days associated with beds in a unit or ward that could not
be made available for inpatient occupancy within 24 hours for 30 consecutive
days. 42 C.FC.F..R. 412.105(b). Further, in the preamble to its Final Rule in the
August II, 2004 Federa
                    Federall Register, coincidentally this same Final Rule included
guidance on the revision of the CAH bed limit to 25 beds, CMS explained that to
be counted, beds must be able to be staffed for inpatient care either by nurses on
staff or from a nurse registry within 24 to 48 hours, and that this can generally be
tested by determining whether they are located in a uni unitt that is otherwise statTed
                                                                                         Page 4 of5




Mr. Marc Gustafson
August 7, 2009
Page 4


and occupied. eMS also stated that it does not believe that an accurate bed count
should include beds that are essentially hypothetical in nature; for example, when
the beds are on a floor that is not used for inpatient care throughout the entire cost
reporting period. 69 F.R. No. 154 at pg. 49,094
                                          49,094..

Such is the case for the spare beds that were located in the Hospital's storage area
                                                                                area..
These beds may be swapped out for other hospital-type beds, but were never used
in addition to the Hospital's 25 beds in the inpatient unit. The Hospital's spare
beds were maintained in an area that is not equipped for patient care, nor could it
be under current hospital licensure and CoP facility requirements. This is merely
a heated storage area. The area also does not adjoin other inpatie
                                                              inpatiennt areas. The
Hospital placed its spare beds there to better maintain the quality of its operating
compliment of 25 beds.

A review of the Hospital's daily census was conducted during the October 2007
DIG audit. The Hospital's daily census confirmed that the two spare beds and 4
cribs wer
        eree never used in addition to the 25 inpatient beds. They were only used
for "change out" purposes. Therefore, the Hospital maintains that it was in
compliance with CMS' stated policy regarding the bed count for a CAH. Storing
the spare and change out beds in an unheated storage area not in or adjacent to the
                                        increease the costs of maintaining a quality
Hospital will, in the long run, only incr
supply of beds which, since the Hospital is a CAH increase the costs to the
Medicare program.

In conclusion, the Ho  Hosp
                          spital
                            ital believes that the OIG's interpretation of CAH
available inpatient bed count is inconsistent with CMS guidance. It also leads to
imprractical results. CAHs must be able to maintain spare beds and parts, as well
imp
and special pediatric beds for small children, in order to provide quality patient
care in a cost efficient manner. If the DIG's interpretation is what CMS intended,
then guidance should be issued to clarify CMS' policy on CAH bed count.

OIG Recommendation 2: The OIG recommends that the hospital revise and
resubmit its 2005 aod 2006 Medicare cost reports, if not settled, to properly
reflect the exclusion of the $62,945 in unallowable costs.

OIG Recommendation 3: The OIG recommends that the hospital ensure
tbat it only reports allowable costs   00   future Medicare cost reports.

Response to OIG Recommendations 2 and 3: The Hospital agrees with the
DIG's determination that certain unallowable building lease expenses and
lobbying costs were reported on the Hospital's 2005 and 2006 cost reports. These
costs were inadvertently included in the Hospital's cost reports. Prior to the
issuance of the DIG report, the Hospital's 2005 and 2006 cos
                                                           costt reports had been
                                                                                                        Page 5 of5




               Mr. Marc Gustafson 

               August 7,2009 

               Page 5 



               audited without adjustments for these items and the Notice of Program
               Reimbursement ("NPR") issued by the fiscal intermediary. The applicable
               Medicare regulations prohibit hospitals from amending their cos   costt reports as the
               OIG report suggests, after the NPR has been issued. However, the Hospital has
               submitted a copy of the OIO's draft audit report and a lette
                                                                      letterr disclosing these errors
               to its fiscal intermediary and requesting guidance on how the intermediary would
               like to correct the errors and is currently awaiting a response. The Hospital
               anticipates that the intermediary will reopen the NPRs to adjust for these matters
               and the Hospital will fully comply with the fiscal intermediary's plan for
               corrective action.

               The Hospital also agrees with the OIG's recomme
                                                        recommen  ndation that the hospital ensure
               that it only reports allowable costs on future Medicare cost reports. As stated
               above, the reporting of unallowable building lease expenses and lobbying costs on
               the Hospital's 2005 and 2006 cost reports were inadvertent errors. The Hospital,
               and System of which it is a part, already have policies governing cost reporting
               that are designed to comply with all applicable requirements
                                                                  requirements.. The Hospital is
               committed to accurately reporting all costs in compliance with the Medicare
               regulations.

               We appreciate the opportunity to review and respond to the draft audit report. . If
               you have any questions regarding this response, please caB me at
                                                                             at•••••••

               Very truly yours,


             ~t.=:w~
               President and Chief Executive Officer 

               St. Vincent Frankfort Hospital 


               855484vl




Office of Inspector General Note-The deleted text has been redacted because it is
personally identifiable infonnation.
